Spine   Center




                    Office of Inspector General
                  Semiannual Report to Congress
                       October 1, 2009 – March 31, 2010
                 Board of Governors of the Federal Reserve System




Spine
                                        April 30, 2010




The Honorable Ben S. Bernanke
Chairman
Board of Governors of the Federral Reserve System
Washington, DC 20551

Dear Chairman Bernanke:

      We are pleased to present oour Semiannual Report to Congress, which summ    marizes the
activities of our office for the repporting period October 1, 2009, through March 31,
                                                                                  3 2010. The
Inspector General Act of 1978, aas amended, requires that you transmit this reporrt to the
appropriate committees of Congrress within 30 days of receipt, together with a seeparate
management report and any com     mments you wish to make.

                                           Sincerely,



                                     Elizabeth A. Coleman
                                       Inspector General

Enclosure
Semiannual Report to Congress
   October 1, 2009 – March 31, 2010
Table of Contents

                                                                                                                     Page

Highlights .................................................................................................................1

Overview of the OIG’s Strategic Plan, 2008 − 2011 ...............................................2

Introduction ..............................................................................................................3

Organization Chart ...................................................................................................4

Audits and Attestations ............................................................................................5

Inspections and Evaluations ...................................................................................12

Investigations .........................................................................................................28

Legal Services ........................................................................................................33

Communications and Coordination .......................................................................34

Appendixes

   Appendix 1—Audit, Inspection, and Evaluation Reports Issued with
              Questioned Costs during the Reporting Period ..........................39

   Appendix 2—Audit, Inspection, and Evaluation Reports Issued with
              Recommendations that Funds Be Put to Better Use
              during the Reporting Period .......................................................40

   Appendix 3—OIG Reports with Recommendations that Were Open
              during the Reporting Period ........................................................41

   Appendix 4—Audit, Inspection, and Evaluation Reports Issued
              during the Reporting Period ........................................................43

   Appendix 5—Cross-References to the Inspector General Act ..........................44

Table of Acronyms and Abbreviations ..................................................................45




Semiannual Report to Congress                                 i                                       April 2010
Highlights
Consistent with our responsibilities under the Inspector General Act of 1978, as
amended, we continued to work with the Board of Governors of the Federal
Reserve System (Board) to promote integrity, economy, efficiency, and
effectiveness in Board programs and operations; deter fraud, waste, and abuse;
and strengthen accountability to the Congress and the public. Highlights of our
work during the reporting period follow.

•   Review of Failed Banks. During this reporting period, 11 state member banks
    failed, with an estimated loss of $1.74 billion to the Deposit Insurance Fund.
    All but one of these failures met the statutory threshold requiring our office to
    conduct a material loss review. We completed 7 material loss reviews this
    period, and we have work underway for 11 others. An emerging theme from
    this work is that high concentrations in a risky asset class, such as construction
    and land development loans, can pose a substantial safety and soundness risk to
    a financial institution; therefore, an immediate and forceful supervisory
    response is required when examiners detect a market decline, problems with
    credit risk management processes, or other such issues (see page 12).

•   Financial Statement Audits. We contracted with Deloitte & Touche LLP, an
    independent public accounting firm, to conduct the annual financial statement
    audits of the Board and the Federal Financial Institutions Examination
    Council (FFIEC). Both the Board and the FFIEC received “clean,”
    unqualified opinions on their financial statements, consistent with generally
    accepted government auditing standards. The auditors also audited, in
    accordance with applicable standards, the effectiveness of the Board’s internal
    control over financial reporting and expressed a clean, unqualified opinion on
    these controls (see page 5).

•   FISMA. We completed our annual Federal Information Security Management
    Act of 2002 (FISMA) audit work and found that the Board continued to maintain
    a FISMA-compliant approach to its information security program (see page 6).

•   Review of Lending Facilities. We completed the field work and the initial
    draft report for our review of the status of the six lending facilities that the
    Board established, pursuant to its authority under section 13(3) of the Federal
    Reserve Act, to help stabilize financial markets (see page 7).

•   Criminal Investigation. A multi-agency investigation into a scheme to
    defraud individuals and entities seeking loan financing resulted in the subject,
    who misrepresented an affiliation with the Federal Reserve System, pleading
    guilty to, among other things, wire fraud, money laundering, and false
    personation. The subject had collected approximately $2 million from about
    15 loan customers, none of whom received a loan or got back the “minimum
    capital requirement payments” they had made to the subject. To date, the
    investigation has resulted in the seizure of more than $800,000 and four
    luxury vehicles (see page 28).

Semiannual Report to Congress             1                                April 2010
Overview of the OIG’s Strategic Plan, 2008 – 2011




Semiannual Report to Congress   2           April 2010
Introduction
Consistent with the Inspector General Act of 1978 (IG Act), as amended,
5 U.S.C. app. 3, the mission of the Board’s Office of Inspector General (OIG) is to

•    conduct and supervise independent and objective audits, investigations, and
     other reviews of the Board’s programs and operations;

•    promote economy, efficiency, and effectiveness within the Board;

•    help prevent and detect fraud, waste, and mismanagement in the Board’s
     programs and operations;

•    review existing and proposed legislation and regulations and make
     recommendations regarding possible improvements to the Board’s programs
     and operations; and

•    keep the Chairman and Congress fully and currently informed of problems
     relating to the administration of the Board’s programs and operations.

Congress has also mandated additional responsibilities that influence where the
OIG directs its resources. For example, section 38(k) of the Federal Deposit
Insurance (FDI) Act, as amended, 12 U.S.C. 1831o(k), requires the Board’s OIG
to review failed financial institutions supervised by the Board that result in a
material loss to the Deposit Insurance Fund (DIF) and to produce, within six
months, a report that includes possible suggestions for improvement in the
Board’s banking supervision practices. In the information technology arena,
FISMA, Title III of Public Law No. 107-347, provides a comprehensive
framework for ensuring the effectiveness of information security controls over
resources that support federal operations and assets. Consistent with FISMA’s
requirements, we perform an annual independent evaluation of the Board’s
information security program and practices, which includes evaluating the
effectiveness of security controls and techniques for selected information systems.
The USA PATRIOT Act of 2001, Public Law No. 107-56, grants the Board
certain federal law enforcement authorities. Our office serves as the external
oversight function for the Board’s law enforcement program and operations. In
addition, we oversee the annual financial statement audits of the Board and the
FFIEC.




Semiannual Report to Congress            3                               April 2010
Organization Chart

              OFFICE OF INSPECTOR GENERAL
                                                         (April 2010)




                                                      OIG Staffing

                 Auditors (including Information Technology) .................. 40
                 Investigators......................................................................... 9
                 Attorneys .............................................................................. 4
                 Administrative and Hotline ................................................ 4
                 Information Systems Analysts ............................................ 4
                                    Total Authorized Positions                                           61




Semiannual Report to Congress                                       4                                         April 2010
Audits and Attestations
The Audits and Attestations program assesses certain aspects of the economy,
efficiency, and effectiveness of the Board’s programs and operations. For
example, the office of Audits and Attestations conducts audits of (1) the
presentation and accuracy of the Board’s financial statements and financial
performance reports; (2) the effectiveness of processes and internal controls over
the Board’s programs and activities; (3) the adequacy of controls and security
measures governing the Board’s financial and management information systems
and the safeguarding of the Board’s assets and sensitive information; and
(4) compliance with applicable laws and regulations related to the Board’s
financial, administrative, and program operations. As mandated by the IG Act,
OIG audits and attestations are performed in accordance with the Government
Auditing Standards established by the Comptroller General. The information
below summarizes OIG work completed during the reporting period, including
our follow-up activities, and ongoing work that will continue into the next
semiannual reporting period.


Audit of the Board’s Financial Statements for the Year Ending December 31,
2009, and Audit of the Federal Financial Institutions Examination Council’s
Financial Statements for the Year Ending December 31, 2009

We contract for an independent public accounting firm to annually audit the
financial statements of the Board and the FFIEC. (The Board performs the
accounting function for the FFIEC.) The accounting firm, currently Deloitte &
Touche LLP, performs the audits to obtain reasonable assurance that the financial
statements are free of material misstatement. The OIG oversees the activities of
the contractor to ensure compliance with generally accepted government auditing
standards. The audits include examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. The audits also include an
assessment of the accounting principles used and significant estimates made by
management, as well as an evaluation of the overall financial statement
presentation.

In the auditors’ opinion, the Board’s and the FFIEC’s financial statements
presented fairly, in all material respects, the financial position, results of
operations, and cash flows of each entity as of December 31, 2009, in conformity
with accounting principles generally accepted in the United States. To determine
the auditing procedures necessary to express an opinion on the financial
statements, the auditors reviewed the Board’s and the FFIEC's internal controls
over financial reporting. This year, the auditors expressed an opinion on the
effectiveness of the Board's internal controls over financial reporting based on the
Public Company Accounting Oversight Board standards and the Government
Auditing Standards. In the auditors’ opinion, the Board maintained, in all
material respects, effective internal control over financial reporting as of
December 31, 2009. With regard to the FFIEC’s internal controls over financial
reporting, the auditors noted no matters that they considered material weaknesses.


Semiannual Report to Congress            5                                April 2010
As part of obtaining reasonable assurance that the financial statements were free
of material misstatement, the auditors also performed tests of the Board's and the
FFIEC's compliance with certain provisions of laws and regulations, since
noncompliance with these provisions could have a direct and material effect on
the determination of the financial statement amounts. The results of the auditors’
tests disclosed no instances of noncompliance that would be required to be
reported under the Government Auditing Standards.


Audit of the Board’s Information Security Program

During this reporting period, we completed our audit of the Board's information
security program and practices. The audit was performed pursuant to FISMA,
which requires that each agency Inspector General conduct an annual independent
evaluation of the agency's information security program and practices. Based on
FISMA’s requirements, our specific audit objectives were to evaluate (1) the
Board’s compliance with FISMA and related information security policies,
procedures, standards, and guidelines; and (2) the effectiveness of security
controls and techniques for a subset of the Board’s information systems. We also
followed up on the status of the Board’s corrective actions in response to open
recommendations from our prior FISMA reports and security control reviews of
Board systems.

Overall, we found that the Board’s Information Security Officer (ISO) continued
to maintain a FISMA-compliant approach to the Board’s information security
program and that the Board’s inventory had remained stable. Based on our prior
recommendations, the ISO had allocated additional resources to the Division of
Information Technology’s (IT’s) Security Compliance unit and implemented an
improved approach to security assessments that included independent testing. In
addition, the ISO continued to issue and update information security policies and
guidelines and had started to develop security metrics to measure security
performance and compliance. The Board continued to emphasize information
security awareness by offering additional automated presentations that highlight
potential vulnerabilities and posting awareness reminders throughout Board
buildings. To further enhance the Board’s information security program, we
identified four new recommendations to the Chief Information Officer (CIO):
(1) ensure all systems have updated security plans; (2) test select critical controls
within the IT general support system annually; (3) independently verify that
appropriate corrective action has been implemented before items are removed
from the Board’s Plan of Action and Milestones (POA&M); and (4) provide
mandatory FISMA training to selected staff with FISMA responsibilities. We
will continue to review the qualitative aspects of the program as part of future
FISMA audits and evaluations.

To evaluate security controls and techniques, we reviewed controls over two
Board applications and one application operated by the Federal Reserve Bank of


Semiannual Report to Congress             6                                  April 2010
New York in support of the Board’s Division of Monetary Affairs. We also
conducted reviews of (1) audit logging controls provided for a number of Board
systems and by the IT general support system, and (2) the Board’s POA&M
program and processes. We reviewed components of the Board’s certification
and accreditation process, including risk assessments, security plans, and security
assessments. We also reviewed information concerning the Board’s processes
related to areas for which the Office of Management and Budget requests a
specific response as part of the agency’s annual FISMA reporting, including
security awareness and training, system inventory, remedial action monitoring,
incident reporting, configuration management, controls over personally
identifiable information, and privacy impact assessments. Our reviews of Board
applications’ information security controls identified areas where controls needed
to be strengthened. (Given the sensitivity of the issues in these reviews, we
provided the specific results to management in separate restricted reports.)

In following up on the status of corrective actions in response to open
recommendations from our prior FISMA reports, we determined that the Board’s
corrective actions were sufficient to close two of three open recommendations.
The third recommendation was to ensure that risk assessments adequately
identify, evaluate, and document the risks to an information system based on
potential threats, vulnerabilities, and controls. The ISO had developed a
supplemental controls questionnaire to assist system owners in determining
whether additional controls are needed. However, our detailed review of selected
risk assessments showed that system owners could improve in identifying,
evaluating, and documenting potential system vulnerabilities, the associated level
of risk, and the need for additional controls to address these risks. The ISO has
plans to further enhance the risk assessment process, and we kept this
recommendation open while we monitor the implementation of these
enhancements. In following up on the Board’s actions in response to 5 of our
prior security control reviews with open recommendations, we determined that
sufficient actions were taken to close 57 of the 61 open recommendations from
those reviews. We will continue to monitor the Board’s actions on open
recommendations from our security control reviews.

The Director of IT, in her capacity as CIO for FISMA, generally agreed with our
report and stated that additional program enhancements are planned for the next
two years that will address most of the key improvement opportunities
highlighted in our report.


ONGOING AUDIT WORK

Review of the Federal Reserve’s Lending Facilities and Special Programs

During this period, we continued our review of the Federal Reserve’s lending
facilities and special programs. In response to the financial crisis, the Board


Semiannual Report to Congress            7                                April 2010
initiated a number of lending facilities and special programs to restore liquidity in
the economy and preserve financial and economic stability. Many of these
lending facilities and special programs have been established pursuant to the
Board’s authority under section 13(3) of the Federal Reserve Act to authorize
Federal Reserve Banks, in unusual and exigent circumstances, to extend credit to
individuals, partnerships, and corporations that are unable to obtain adequate
credit accommodations from other banking institutions. Through these facilities
and programs, the Federal Reserve Banks of New York and Boston have provided
loans to depository institutions, bank holding companies, commercial paper
issuers, and securities dealers. In addition, the Board has authorized assistance to
large financial services companies, such as American International Group and
Bear Stearns. The objectives of this review are to obtain information on the
various Federal Reserve lending facilities and special programs and to identify
risk areas that may warrant further review.

During this reporting period, we completed our initial draft report on the Board’s
six lending facilities and discussed our review results with appropriate
management officials. We anticipate issuing our final report in the next reporting
period.


Security Control Review of the Board’s Lotus Notes and Lotus Domino
Infrastructure

During this period, we issued a draft report of our security control review of the
Board’s Lotus Notes and Lotus Domino infrastructure to management for review
and comment. Lotus Notes and Lotus Domino are used to provide the Board's
email, calendar, and database functions. We selected the Lotus Notes and Lotus
Domino infrastructure for review because it is a component of the general support
system that supports the Board's email and application development
infrastructure. Our objectives were to evaluate (1) the effectiveness of selected
security controls and techniques for protecting the Lotus Notes and Lotus Domino
infrastructure from unauthorized access, modification, or destruction; and
(2) compliance with the Board's information security program. We are awaiting a
response from the CIO, and we expect to complete this project and issue our final
report in the next reporting period.


Security Control Review of the Internet Electronic Submission System

During this period, our office began a security control review of the Internet
Electronic Submission (IESub) system developed and maintained by the Federal
Reserve Bank of New York’s Research and Statistics Group. IESub is a major
third-party application on the Board’s FISMA application inventory under the
Division of Monetary Affairs. It provides an interface for respondents to submit



Semiannual Report to Congress             8                                April 2010
data for regulatory and statistical reports via the internet. We expect to complete
this project and issue our final report in the next reporting period.


Audit of the Board’s Transportation Subsidy Program

We completed the initial draft report on our audit of the Board’s transportation
subsidy program. The audit objective is to evaluate whether the program is
properly controlled and efficiently administered. Specifically, we are assessing
the extent to which the Board's program controls (1) ensure compliance with
applicable laws and regulations and management’s authorization, and (2) prevent
unauthorized or fraudulent activities. We expect to complete this project and
issue our final report in the next reporting period.


FOLLOW-UP WORK

Follow-up on the Audit of Retirement Plan Administration

Our 2003 report on Audit of Retirement Plan Administration contained four
recommendations to strengthen oversight and administration of the retirement
plan. Previous follow-up work enabled us to close three of the recommendations.
Our final open recommendation was that the Board, through its representation on
the Committee on Plan Administration, modify the methodology for including
lump sum payments in pension benefit calculations for members of the Board
Benefit Structure. During this reporting period, we reviewed the revised
methodology and tested a random sample of four recent retirees under the Board
Benefit Structure who had lump sum awards, such as cash awards or variable pay.
We did not find any discrepancies in the pension benefit calculations. Based on
these results, we believed the actions taken were sufficient to close this last open
recommendation.


Follow-up on the Audit of the Board’s Payroll Process

During the reporting period, we completed a second follow-up review of our
December 2006 report on Audit of the Board’s Payroll Process. The report
contained seven recommendations designed to improve the overall efficiency and
accuracy of the Board’s payroll processes, and to help ensure compliance with
applicable laws and regulations. One of the recommendations was closed as a
result of our first follow-up review. During the current review, we determined
that sufficient action had been taken to close two recommendations regarding
(1) the realignment of the roles and responsibilities between payroll and benefits
staff to streamline the new hire and benefits elections processes and (2) the
enhancement of controls over the payroll. Benefits staff, rather than payroll staff,
now input employees’ benefit elections and related information directly into the


Semiannual Report to Congress            9                                 April 2010
payroll system, with supervisory review. We also found that, to enhance payroll
application controls, payroll staff members are no longer able to enter or update
their own payroll information, or to purge or alter payroll audit log tables. In
addition, we determined that the Federal Reserve Bank of Atlanta (FRB Atlanta)
now provides the Board an electronic verification stating the net pay amount for
each pay period, as a summary of the file the Board sent to FRB Atlanta.

We also determined that action had been taken to partially address two other
recommendations related to (1) redesigning existing payroll processes to increase
efficiency and strengthen controls by reducing or eliminating multiple data
transcriptions for overtime and other types of premium pay and (2) developing
and disseminating procedures for all payroll-related processes. We determined
that the Board’s Management Division (MGT) developed a process, Rapid Entry
Paysheets, to record and disburse premium pay, and it is in full operation within
MGT’s Law Enforcement Unit. However, the new process is only being used by
one of the four functional areas cited in the report. MGT is planning to perform
training and testing for the other functional areas in the near future. Once the
Rapid Entry Paysheets process is implemented for the other areas, we will
reassess MGT’s actions and the closure of this recommendation. MGT also has
started to develop, document, and disseminate payroll-related procedures. We
determined, though, that these procedures had not been finalized and approved.
Once the procedures are finalized and approved, we will reassess MGT’s actions
and the closure of this recommendation.


Follow-up of the Report on the Control Review of the Board’s Currency
Expenditures and Assessments

Our 2008 Report on the Control Review of the Board’s Currency Expenditures
and Assessments contained five recommendations to MGT and one
recommendation to the Division of Reserve Bank Operations and Payment
Systems (RBOPS) to enhance the Board’s currency processes and strengthen the
program’s controls. Specifically, our review identified opportunities to enhance
the Board’s processes and strengthen controls for paying currency invoices,
processing assessments, monitoring vendors, reporting the currency expenses in
the Board’s financial statements, and restricting currency account codes. We
recommended that the Director of MGT (1) ensure that currency invoices
received for payment are approved by individuals listed on current Delegation of
Authority (DoA) forms; (2) ensure that currency assessment allocations are
properly approved; (3) coordinate with the Director of RBOPS to ensure that
currency carriers maintain insurance coverage throughout the length of the
contract; (4) enhance the Board’s financial statements by expanding the
description of, and providing supplemental information on, currency expenses and
assessments; and (5) implement additional controls in the Board’s financial
management system to restrict currency account codes to the currency cost center.
We also identified opportunities to strengthen controls in the Board’s monitoring


Semiannual Report to Congress           10                               April 2010
of the Bureau of Engraving and Printing’s currency printing, inventory, and
shipping. Accordingly, we recommended that the Director of RBOPS establish
agreements between the Board and the Bureau of Engraving and Printing to
formalize vault operational reviews and develop a mechanism to independently
verify the unissued notes inventory.

Based on our follow-up work, we determined that sufficient action had been taken
to close the five recommendations to MGT. Specifically, we found that MGT
(1) implemented online approvals that use Oracle’s functionality to route invoices
directly to the individuals who have been authorized to approve payment, and
updated DoA forms to include the proper authorized individuals; (2) automated
the assessment allocation process through Oracle, and directly routed assessment
transactions for approval within Oracle before further system processing;
(3) scheduled meetings with RBOPS staff, at appropriate time intervals, to ensure
that insurance certificates are current for each of the five currency carriers;
(4) streamlined and refined currency-related language to be more precise in
headings and line-item descriptions, and correlated this information with the
corresponding notes to the financial statements; and (5) activated system controls
that prevent the miscoding of currency accounts to an invalid cost center. We
plan to perform follow-up work during the next period regarding our
recommendation to RBOPS.


Follow-up of the Security Control Review of the Electronic Security System

During the reporting period, we completed a follow-up review of our June 2009
Security Control Review of the Electronic Security System (ESS). ESS is listed as
a major application on the Board's FISMA application inventory for MGT. ESS
augments the Board's physical security and provides a uniform system for badge
issuance, video monitoring, and video recording. The report contained eight
recommendations designed to address the protection of ESS from unauthorized
access, modification, destruction, or disclosure. Based on our follow-up work, we
determined that sufficient action had been taken to close all eight
recommendations.




Semiannual Report to Congress           11                               April 2010
Inspections and Evaluations
The Inspections and Evaluations program encompasses OIG inspections, program
evaluations, enterprise risk management activities, process design and life-cycle
evaluations, and legislatively-mandated material loss reviews of failed financial
institutions that the Board supervises. Inspections are generally narrowly focused
on a particular issue or topic and provide time-critical analysis that cuts across
functions and organizations. In contrast, evaluations are generally focused on a
specific program or function and make extensive use of statistical and quantitative
analytical techniques. Evaluations can also encompass other non-audit, preventive
activities, such as review of system development life-cycle projects and
participation on task forces and workgroups. OIG inspections and evaluations are
performed according to the Quality Standards for Inspections issued by the
Council of the Inspectors General on Integrity and Efficiency (CIGIE).


Material Loss Reviews

                              Section 38(k) of the FDI Act requires that the
                              Inspector General (IG) of the appropriate federal
                              banking agency review the agency’s supervision of a
                              failed institution within six months of notification
                              from the Federal Deposit Insurance Corporation
                              (FDIC) IG when the projected loss to the DIF is
                              material. A loss is material when it exceeds the
                              greater of $25 million or 2 percent of the failed
institution’s total assets. The FDI Act specifically requires that we

•    review the institution’s supervision, including the agency’s implementation of
     prompt corrective action;

•    ascertain why the institution’s problems resulted in a material loss to the DIF; and

•    make recommendations for preventing any such loss in the future.

During this reporting period, we issued reports on seven failed state member
banks that exceeded the materiality threshold.1 These banks had total assets of
approximately $3.1 billion and total losses of approximately $1.3 billion, or
approximately 40 percent of total assets.




    1. A total of 22 state member banks failed from December 2008 through March 2010. Of those, 10 material loss
reviews have been completed by the OIG, 11 material loss reviews are ongoing, and 1 bank failure did not meet the
materiality threshold requiring a material loss review. The total estimated loss to the DIF for the 22 banks is approximately
$4 billion.

Semiannual Report to Congress                               12                                                 April 2010
Material Loss Reviews Completed during the Reporting Period
                                            Federal                         Projected                     FDIC IG
                                            Reserve         Asset size        Loss         Closure       Notification
 State Member Bank          Location        District      (in millions)   (in millions)     Date           Date1

 Michigan Heritage         Farmington       Chicago         $ 160.9         $ 68.3        04/24/2009     06/22/2009
    Bank                    Hills, MI

 Community Bank of         Villa Rica,       Atlanta        $ 200.0          $ 85.1       06/26/2009     07/28/2009
   West Georgia                GA

 Neighborhood              Newnan, GA        Atlanta        $ 210.4          $ 66.6       06/26/2009     07/28/2009
    Community Bank

 BankFirst                 Sioux Falls,    Minneapolis      $ 246.1          $ 90.0       07/17/2009     08/19/2009
                               SD

 Community First Bank     Prineville, OR       San          $ 199.8          $ 44.4       08/07/2009     09/15/2009
                                            Francisco
 Community Bank of         Las Vegas,          San          $1,500.0         $766.5       08/14/2009     09/15/2009
   Nevada                     NV            Francisco

 CapitalSouth Bank         Birmingham,        Atlanta        $ 588.5           $146.0       08/21/2009     09/15/2009
                                AL
 1. Date that the Board OIG received notification from the FDIC IG that the projected loss to the DIF would be
 material. The Board OIG is required to complete its material loss review of such banks within six months of this
 notification date.



Material Loss Review of Michigan Heritage Bank

Michigan Heritage Bank (Michigan Heritage) was supervised by the Federal
Reserve Bank of Chicago (FRB Chicago), under delegated authority from the
Board, and by the Michigan Office of Financial and Insurance Regulation (State).
The State closed Michigan Heritage in April 2009, and the FDIC was named
receiver. On June 22, 2009, the FDIC IG notified us that Michigan Heritage’s
failure would result in an estimated loss to the DIF of $68.3 million, or about
42.5 percent of the bank’s $160.9 million in total assets.

Michigan Heritage failed because its Board of Directors and management did not
adequately control the risk associated with a high concentration in the
construction and land development (CLD) loan component of the bank’s
commercial real estate (CRE) portfolio. The bank developed a CLD
concentration after changing its lending strategy from equipment lease financing
to CRE and commercial and industrial loans. The decline in southeast Michigan’s
economy affected the bank’s local real estate market, and the CLD loan portfolio
experienced significant losses. In early 2007, the Board of Directors hired new
management to strengthen risk management and credit administration, but efforts
to improve the deteriorating CLD loan portfolio were unsuccessful. As losses
mounted, Michigan Heritage’s earnings were eliminated, and capital was severely
depleted. The bank was closed on April 24, 2009, after it failed to meet a
regulatory deadline to either increase its capital, be acquired by another
institution, or take other necessary measures to make the bank adequately
capitalized.

Semiannual Report to Congress                            13                                               April 2010
With respect to supervision, we believe that the circumstances examiners
observed in the late 2007 to early 2008 timeframe, including (1) deteriorating
economic conditions, (2) a more than four-fold increase in classified assets, and
(3) concerns regarding the bank’s future prospects, provided an opportunity for a
stronger supervisory response, such as an appropriate enforcement action
requiring management to maintain capital commensurate with an increasing risk
profile.

The financial impact of the deteriorating local economy and real estate market
was evident during the examination that FRB Chicago began in October 2007.
Auto industry lay-offs were increasing, causing what examiners referred to as
economic stagnation, particularly in the real estate market. Michigan Heritage’s
concentration in CLD loans made the bank vulnerable to a downturn in the real
estate market. Significant asset quality deterioration was also evident, and
classified assets more than quadrupled from $2.7 million to $12.5 million in a
12-month period. Examiners warned that protracted weaknesses in the real estate
market could have a significant impact on potential portfolio losses, and they
noted that the prospects for improving Michigan Heritage’s financial condition
and performance were “mixed” because of the Michigan economy and the bank’s
location in the northern suburbs of Detroit. While we believe that the
circumstances FRB Chicago observed during the late 2007 to early 2008 time
period provided an opportunity for a more forceful supervisory response, it was
not possible to determine whether any such action would have affected Michigan
Heritage’s subsequent decline or the cost to the DIF.

Michigan Heritage’s failure offered a valuable lesson learned. The bank changed
its business strategy from equipment lease financing to CRE and commercial and
industrial loans; in doing so, it developed a concentration in CLD loans. Many of
the problem loans that eventually led to Michigan Heritage’s failure were
underwritten during its lending strategy transition to CLD loans when the bank
did not have the appropriate leadership, personnel, and infrastructure to support
the change. Accordingly, we believe that a bank making a significant change to
its business strategy warrants heightened supervisory attention, including an
in-depth assessment of management’s experience and capability to manage the
risks associated with any new lines of business.

The Director of the Division of Banking Supervision and Regulation agreed with
our conclusion and concurred with the lesson learned.


Material Loss Review of Community Bank of West Georgia

Community Bank of West Georgia (West Georgia) was supervised by FRB
Atlanta, under delegated authority from the Board, and by the Georgia Department
of Banking and Finance (State). West Georgia was a de novo bank, which Board
supervisory guidance defines as a state member bank that has been in operation for


Semiannual Report to Congress           14                               April 2010
five years or less. The State closed West Georgia on June 26, 2009, and the FDIC
was named receiver. On July 28, 2009, the FDIC IG notified us that West
Georgia’s failure would result in an estimated loss to the DIF of $85.1 million, or
about 42.6 percent of the bank’s $200 million in total assets.

West Georgia failed because its Board of Directors and management did not
properly manage and control the risk associated with the bank’s highly
concentrated acquisition, development, and construction (ADC) loan portfolio.
West Georgia expanded its ADC lending when the metropolitan Atlanta area was
experiencing rapid growth. However, a declining real estate market, coupled with
credit administration and loan underwriting weaknesses, led to deteriorating asset
quality and significant losses, particularly in the ADC portfolio. Mounting losses
eliminated earnings and depleted capital, which ultimately led to the State closing
West Georgia.

Our analysis of FRB Atlanta’s supervision of West Georgia indicated that
emerging problems that became apparent in early 2007 warranted a more forceful
supervisory response compelling West Georgia’s management to (1) address
credit administration and loan underwriting deficiencies and (2) maintain capital
commensurate with the bank’s high concentration in speculative ADC loans. By
early 2007, it was apparent that West Georgia’s credit risk was high due to (1) a
large concentration in ADC loans, especially speculative construction loans for
homes that were not pre-sold; and (2) weaknesses in credit administration and
loan underwriting. Although West Georgia received a CAMELS composite 2
(satisfactory) rating, examiners cited credit management problems, including
insufficient information contained in memoranda supporting ADC loans and a
lack of independent appraisal reviews.2 In addition, examiners noted a declining
trend in capital and expressed concerns about West Georgia’s capital in light of
the bank’s high ADC concentration. Examiners specifically cautioned that West
Georgia’s capital level might not be sufficient to absorb unexpected losses arising
from the bank’s ADC concentration.

The case for a stronger supervisory response in early 2007 was supported by the
results of an FRB Atlanta November 2007 visitation, when examiners noted that
the bank’s credit risk analysis and monitoring of commercial real estate loans still
needed further improvement and that there were continued weaknesses in credit
administration. In addition, Federal Reserve guidance on de novo bank
supervision states, “Given the rapid deterioration experienced by some de novo
banks, a timely supervisory response to address problem areas is particularly
important.” The guidance also advises that prompt supervisory action should be
taken when weaknesses are first detected.




    2. The CAMELS acronym represents six components: Capital adequacy, Asset quality, Management practices,
Earnings performance, Liquidity position, and Sensitivity to market risk. Each component and overall composite score is
assigned a rating of 1 through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


Semiannual Report to Congress                             15                                               April 2010
West Georgia’s failure pointed to a valuable lesson learned because it illustrated
that de novo banks with a growth strategy that results in a concentration of ADC
loans can be highly vulnerable to changes in the real estate market. Accordingly,
de novo banks with ADC concentrations require immediate and forceful
supervisory action compelling management to (1) correct credit administration
and loan underwriting deficiencies as soon as they begin to appear, and
(2) maintain capital levels that are commensurate with emerging risks.

During the course of our review, we found that discrete Board guidance
pertaining to de novo bank examinations was contained in two separate
documents that were not cross-referenced, which could result in the guidance
being overlooked or misinterpreted. Our report recommended that the
supervisory guidance related to de novo banks be clarified.

The Director of the Division of Banking Supervision and Regulation concurred
with our conclusions, lesson learned, and recommendation. The Director said that
he planned to implement our recommendation by making certain revisions to
supervisory guidance.


Material Loss Review of Neighborhood Community Bank

Neighborhood Community Bank (Neighborhood) was supervised by FRB
Atlanta, under delegated authority from the Board, and by the Georgia
Department of Banking and Finance (State). The State closed Neighborhood on
June 26, 2009, and the FDIC was named receiver. On July 28, 2009, the FDIC IG
notified us that Neighborhood’s failure would result in an estimated loss to the
DIF of $66.6 million, or about 31.7 percent of the bank’s $210.4 million in total
assets.

Neighborhood failed because its Board of Directors and management did not
properly manage the risks associated with the bank’s concentration in ADC loans
tied to the residential real estate market. Neighborhood expanded its ADC loan
portfolio when the areas served by the bank experienced rapid growth. A
declining residential real estate market, coupled with management’s failure to
recognize and act upon weakening market conditions, led to deteriorating asset
quality and significant losses, particularly in the ADC loan portfolio. Mounting
losses eliminated earnings and depleted capital, which ultimately caused the State
to close Neighborhood.

In our opinion, the conditions examiners observed during a 2007 examination
provided FRB Atlanta with an opportunity to be more aggressive in addressing
Neighborhood’s high ADC loan concentration as part of its October 2007
informal enforcement action (Board Resolution). FRB Atlanta accelerated the
start of its 2007 examination by three months because ongoing surveillance
revealed an increased inventory of completed but unsold homes in the bank’s


Semiannual Report to Congress           16                                April 2010
market area. Examiners downgraded Neighborhood to a CAMELS composite 3
(fair) rating and noted that staff turnover at Neighborhood during the prior 6 to 12
months had a negative effect on the bank’s ability to manage its loan portfolio.

The 2007 examination report stressed the importance of effective Board of
Directors and senior management oversight given the lending staff’s inexperience
and the “uncertain outlook for residential real estate.” Examiners noted an
increase in classified assets and commented that most of the loans downgraded
during the examination were tied to residential land development and
construction. Bank management was criticized for being slow to recognize loan
deterioration. In addition, examiners stated that the signs of a potential housing
oversupply were evident 12 to 15 months earlier. Separately, examiners noted
that management had continued to originate new ADC loans after other local
banks had begun to reduce their CRE exposure. Accordingly, we believe that the
conditions observed during the 2007 examination that led to a Board Resolution
also warranted compelling Neighborhood to reduce its ADC loan concentration.
However, in light of the subsequent rapid deterioration in the local real estate
market, it was not possible to determine the degree to which any such action
would have affected the bank’s subsequent decline or the failure’s cost to the DIF.

We believe that Neighborhood’s failure offered a lesson learned. In our opinion,
Neighborhood’s failure demonstrated that an aggressive and immediate
supervisory response—including an enforcement action compelling a bank to
reduce its concentration in ADC loans—may be warranted when a financial
institution experiences significant staff turnover and management is slow to
recognize or act upon early signs of loan portfolio deterioration and weakening
market conditions.

The Director of the Division of Banking Supervision and Regulation agreed with
our conclusion and lesson learned.


Material Loss Review of BankFirst

BankFirst was supervised by the Federal Reserve Bank of Minneapolis (FRB
Minneapolis), under delegated authority from the Board, and by the South Dakota
Division of Banking (State). The State closed BankFirst on July 17, 2009, and
named the FDIC receiver. On August 19, 2009, the FDIC IG notified us that
BankFirst’s failure would result in an estimated loss to the DIF of $90 million, or
36.6 percent of the bank’s $246.1 million in total assets.

BankFirst failed because its Board of Directors and management did not establish
a corporate governance and oversight framework to control the risks associated
with its aggressive loan growth and high concentration in CRE loans. The lack of
effective credit risk management controls resulted in a large volume of poorly
underwritten CRE loans that were originated within an 18-month period.


Semiannual Report to Congress            17                                April 2010
BankFirst had pervasive internal control deficiencies, and bank management’s
inability to identify and address loan portfolio weaknesses led to asset quality
deterioration and significant losses. Mounting losses eliminated earnings and
depleted capital, which ultimately caused the State to close BankFirst.

Our analysis of BankFirst’s supervision revealed that FRB Minneapolis did not
devote sufficient supervisory attention to verifying that BankFirst’s Board of
Directors and management implemented a credit risk management framework to
sufficiently control the bank’s rapid growth in a new activity—CRE lending.
Supervisory guidance related to assessing Board of Directors and management
oversight of new business activities stated that examiners should confirm that
bank management has implemented the infrastructure and internal controls
necessary to manage the risks associated with new business activities. A target
examination report issued in March 2007 marked the point when FRB
Minneapolis began to identify the full extent of the credit risk management
weaknesses that contributed to BankFirst’s eventual failure. Many of the findings
and conclusions cited during the 2007 target examination contradicted the results
from five prior examinations. We believe that FRB Minneapolis should have
focused greater attention on credit risk controls during examinations that
immediately followed the bank’s transition to commercial lending.

Specifically, we believe that full scope examinations conducted in 2005 and 2006
presented opportunities for FRB Minneapolis to take more forceful supervisory
action. During the May 2005 examination, FRB Minneapolis noted that
BankFirst’s updated annual projection for loan portfolio growth would almost
triple the forecasted amount cited in management’s business plan. In our opinion,
the magnitude of this projected increase provided FRB Minneapolis with an
opportunity to take immediate supervisory action to restrain further loan portfolio
growth. During the July 2006 full scope examination, examiners did request that
BankFirst curtail further loan growth to allow the loan portfolio to “season,” so
examiners could assess the risks associated with the bank’s strategy. However,
examiners did not conduct sufficient testing to confirm that the bank’s CRE
lending controls were adequate to support the bank’s rapid loan growth.

In our opinion, the 2006 full scope examination represented a missed opportunity
at a critical juncture to (1) uncover the full extent of BankFirst’s credit risk
management weaknesses, including a compensation program that rewarded
making loans but lacked incentives to ensure that the loans were safe and sound,
and (2) compel management to address identified deficiencies. We believe that
an earlier supervisory action to have BankFirst refrain from making additional
loans may have reduced the loss to the DIF.

Recurring corporate governance weaknesses throughout the timeframe preceding
the 2007 target examination also presented an opportunity for FRB Minneapolis
to take more forceful supervisory action. During examinations conducted
between May 2005 and October 2006, examiners noted a variety of corporate


Semiannual Report to Congress            18                               April 2010
governance deficiencies, including (1) persistent strategic planning issues; (2) a
corporate organizational structure that created divided loyalty between BankFirst
and its holding company; (3) the substantial sharing of employees between
affiliated entities; and (4) the need for a Chief Risk Officer, or other advocate,
with sufficient power to manage financial and legal risks resulting from
BankFirst’s transactions with affiliated entities. We believe that the corporate
governance deficiencies identified by examiners during these multiple
examinations represented red flags that, at a minimum, warranted an earlier and
more forceful supervisory response, including an appropriate enforcement action.

FRB Minneapolis did not conclude that a formal enforcement action was
necessary until the 2007 target examination. Upon reaching that conclusion,
issuing the formal enforcement action took five months. We believe that the time
taken to issue the enforcement action was unduly prolonged, but likely did not
have a material impact. The critical juncture to uncover and forcefully address
BankFirst’s loan growth and pervasive control deficiencies was in 2005 and 2006.

In our view, BankFirst’s failure offered important lessons learned. First,
heightened supervisory attention is vital when a bank implements a new business
strategy featuring growth in high-risk lending outside of the institution’s
traditional market area. Second, BankFirst’s failure demonstrated the importance
of confirming that new business activities operate within an effective internal
control infrastructure. The failure also highlighted the need for immediate,
aggressive, and forceful supervisory action when (1) management deviates from
business plan projections or (2) examiners detect corporate governance
deficiencies that blur the barriers between affiliated entities.

The Director of the Division of Banking Supervision and Regulation concurred
with our conclusions and lessons learned and noted the critical importance of
supervisors detecting and addressing serious issues sufficiently early so that risks
to the bank’s viability can be controlled.


Material Loss Review of Community First Bank

Community First Bank (Community First) was supervised by the Federal Reserve
Bank of San Francisco (FRB San Francisco), under delegated authority from the
Board, and by the Oregon Division of Finance and Corporate Securities (State).
The bank opened in 1980 and had as many as eight branches in central Oregon,
including a lending office in Bend, Oregon. The State closed Community First on
August 7, 2009, and the FDIC was named receiver. On September 15, 2009, the
FDIC IG notified us that Community First’s failure would result in an estimated
loss to the DIF of $44.4 million, or 22 percent of the bank’s total assets of
$199.8 million.




Semiannual Report to Congress            19                                April 2010
Community First failed because its Board of Directors and management did not
adequately control the risks associated with a high concentration in the CLD loan
component of the bank’s CRE portfolio. The bank developed a high CLD
concentration when the Bend, Oregon, real estate market was experiencing rapid
growth and extraordinarily high price appreciation. A swift decline in the local
real estate market, coupled with management’s inadequate response to weakening
market conditions, led to deteriorating asset quality and significant losses,
particularly in the CLD portfolio. Mounting loan losses eliminated the bank’s
earnings, depleted capital, and eventually led to the bank’s failure.

With respect to supervision, we believe that the magnitude of financial and
market declines that FRB San Francisco examiners encountered leading up to and
during the summer of 2008, when they conducted an off-site assessment and
downgraded Community First’s CAMELS composite rating to 3 (fair), offered an
early opportunity to provide written notice urging the Board of Directors and
management to begin raising capital to a level commensurate with the bank’s
deteriorating financial condition. Specifically, examiners noted the significant
deterioration in the local real estate market and Community First’s financial
condition. Declining credit quality severely weakened earnings, and the bank
reported a year-to-date loss in the second quarter of 2008. Examiners also
reported that Community First’s capital was considerably lower than its peer
group and was not commensurate with the bank’s risk profile. Finally, examiners
found that bank management was not complying with its policy for obtaining
appraisals when “obvious and material changes in market conditions are present
or when real estate loans become past due, impaired, or otherwise internally
classified.” Examiners indicated that current appraisals were necessary to assess
the soundness of loans that fit the criteria outlined in the bank’s policy. However,
in light of the rapid deterioration of the local real estate market, it was not
possible to determine if an earlier or alternative supervisory action would have
affected Community First’s subsequent decline or the failure’s cost to the DIF.

In our opinion, the failure of Community First offered a valuable lesson learned:
rapid growth of the CLD portfolio in real estate markets experiencing
extraordinarily high price appreciation is an extremely risky strategy that
significantly increases a bank’s vulnerability to any subsequent market downturn
and requires (1) heightened supervisory attention, and (2) immediate supervisory
action when signs of market deterioration or credit administration weaknesses
first appear.

The Director of the Division of Banking Supervision and Regulation agreed with
our conclusions and lesson learned.




Semiannual Report to Congress            20                                April 2010
Material Loss Review of Community Bank of Nevada

Community Bank of Nevada (CBON) was supervised by FRB San Francisco,
under delegated authority from the Board, and by the Nevada Financial
Institutions Division (State). The State closed CBON on August 14, 2009, and
the FDIC was named receiver. On September 15, 2009, the FDIC IG notified us
that CBON’s failure would result in an estimated loss to the DIF of
$766.5 million, or 51.1 percent of the bank’s $1.5 billion in total assets.

CBON failed because its Board of Directors and management did not adequately
control the risks resulting from its strategy of aggressive growth concentrated in
CLD loans within the local real estate market. A precipitous and unprecedented
deterioration of economic conditions within Las Vegas affected the local real
estate market, and the bank’s CLD portfolio experienced significant losses. Bank
management was optimistic that conditions would improve and, therefore, failed
to identify and quantify the magnitude of risk within its heavily concentrated
portfolio. Mounting losses eliminated earnings and depleted capital, which
ultimately led the State to close CBON.

With respect to supervision, we believe that the breadth and significance of issues
that examiners encountered leading up to and during the summer of 2008—when
an off-site assessment downgraded CBON’s CAMELS composite rating to a
3 (fair)—offered an early opportunity for an immediate supervisory response,
such as an appropriate enforcement action compelling the bank’s Board of
Directors and management to mitigate the increasing risks associated with the
declining real estate market and previously identified weaknesses in asset quality,
earnings, credit risk management, and liquidity.

An examination report issued in May 2008 noted that CBON’s overall risk profile
was increasing significantly due to what examiners referred to as “rapidly
changing market dynamics.” In addition, the May 2008 examination
(1) identified gaps in CBON’s risk management processes for loan review,
appraisals, credit underwriting and administrative practices, and liquidity; and
(2) noted that the Board of Directors and management should be proactive to
address the bank’s escalating risks. During a July 2008 meeting with CBON’s
Board of Directors, examiners noted that the bank’s CAMELS composite 2
(satisfactory) rating was supported by the bank’s financial results, but that it did
not reflect the high level of risk inherent in management’s high-concentration
strategy. At that meeting, examiners cited the potential for rapid and severe
negative shifts in the bank’s condition due to its concentration in construction
lending and the reliance on wholesale funding.

An August 2008 supervisory assessment revealed that the risks and potential for
negative changes to the bank’s financial condition previously cited by examiners
were actually occurring. Asset quality was downgraded to less than satisfactory
due to a substantial increase in classified loans and nonperforming assets.


Semiannual Report to Congress            21                                April 2010
Earnings dropped significantly, and examiners noted that, at current levels,
earnings might not fully support operations and be sufficient to replenish capital
and the allowance for loan and lease losses given the institution’s overall risk
profile.

While we believe that an early and forceful supervisory response was warranted
as a result of the issues encountered leading up to and during the August 2008
supervisory assessment, in light of the subsequent steep and rapid deterioration of
the local real estate market, it was not possible to determine if an earlier
enforcement action would have affected CBON’s subsequent decline or the
failure’s cost to the DIF.

CBON’s failure offered valuable lessons learned because it illustrated that a bank
with a strategy that features a high concentration of CLD loans is extremely
vulnerable to changes in the real estate market it serves. In our opinion, CBON’s
failure also demonstrated that extremely high CLD concentrations can surpass a
bank’s capability to withstand a sharply deteriorating market and, therefore, pose
a substantial risk to the safety and soundness of a financial institution.

The Director of the Division of Banking Supervision and Regulation agreed with
our conclusion and concurred with the lessons learned.


Material Loss Review of CapitalSouth Bank

CapitalSouth Bank (Capital South) was supervised by FRB Atlanta, under
delegated authority from the Board, and by the Alabama Department of Banking
and Finance (State). The State closed CapitalSouth on August 21, 2009, and
named the FDIC as receiver. On September 15, 2009, the FDIC IG notified us
that CapitalSouth’s failure would result in an estimated loss to the DIF of
$146 million, or 24.8 percent of the bank’s $588.5 million in total assets.

CapitalSouth, headquartered in Birmingham, Alabama, became a state member
bank in October 1978. From its inception until 2003, the bank’s primary business
strategy involved lending to small- and medium-sized businesses in metropolitan
areas. In 2003, CapitalSouth’s strategy evolved to include expanding through
(1) internal growth of the bank’s traditional business lending activities, including
CRE lending; and (2) targeted acquisitions. In September 2007, CapitalSouth
acquired Monticello Bank, a federal savings association, and its mortgage
subsidiary, Mortgage Lion, Inc.

CapitalSouth failed because its Board of Directors and management did not
implement a credit risk management infrastructure commensurate with its
aggressive expansion strategy and high concentration of CRE loans, including
ADC loans. The bank pursued an aggressive expansion strategy even though its
modest earnings and capital position did not provide the buffer necessary to


Semiannual Report to Congress            22                                April 2010
withstand significant asset quality deterioration. CapitalSouth’s acquisition of
Monticello Bank compounded CapitalSouth’s preexisting credit risk management
weaknesses. A declining real estate market revealed the full extent of the
combined entity’s credit administration and loan underwriting deficiencies and
resulted in asset quality deterioration and significant losses. Mounting losses
eliminated earnings, depleted capital, and ultimately caused the State to close
CapitalSouth.

Our analysis of FRB Atlanta’s supervision of CapitalSouth indicated that
examiners identified key weaknesses in 2005, but missed subsequent
opportunities to take more forceful supervisory action. In a 2005 examination
report, FRB Atlanta highlighted a fundamental issue with the bank’s growth
strategy, observing that the bank had no margin for error and “cannot afford to
have any substantial problem assets or loan losses given its robust growth
objectives and modest earnings.” We believe that FRB Atlanta should have
stressed to CapitalSouth the need for solid earnings performance before the bank
pursued its risky growth strategy. In our opinion, examiners should have
suggested that CapitalSouth postpone its growth objectives until it enhanced its
modest earnings and credit risk management practices. The eventual loss to the
DIF may have been reduced if examiners took a more aggressive supervisory
approach at this juncture.

FRB Atlanta, with the concurrence of Board applications staff, approved
CapitalSouth’s acquisition of Monticello Bank, without conducting a pre-merger
examination or documenting a waiver as specified in the Board’s Supervision and
Regulation (SR) Letter 98-28. This guidance established the criteria for
conducting safety and soundness examinations of depository institutions seeking
to become, or merge into, a state member bank. It outlined an “eligible bank” test
and the factors to be evaluated when determining whether pre-merger
examinations should be conducted, including whether the institution being
acquired has a composite rating of 1 or 2 and has no major unresolved supervisory
issues. At the time of the application, Monticello Bank had a composite 3 rating
and was under a Cease and Desist Order issued by its primary regulator, the
Office of Thrift Supervision, because of its credit risk management weaknesses.
In fact, post-acquisition examinations highlighted numerous high-risk elements in
Mortgage Lion’s loan portfolio, including sub-prime and “no documentation”
lending activities. In our opinion, a full scope pre-merger examination was
warranted and may have led FRB Atlanta to recommend that the Board deny the
acquisition application. If CapitalSouth had not acquired Monticello Bank, the
loss to the DIF may have been reduced.

According to an FRB Atlanta official, the Reserve Bank’s noncompliance with
SR Letter 98-28 was attributable to the structure of the SR letter and confusion
concerning how to apply the eligible bank test. Our report included a
recommendation that the guidance be clarified.



Semiannual Report to Congress           23                                April 2010
We believe that CapitalSouth’s failure offered lessons learned that can be applied
in supervising banks with similar characteristics and circumstances. Specifically,
CapitalSouth’s failure illustrated that banks with a pattern of modest earnings, an
aggressive growth strategy, and a high CRE concentration require heightened
supervisory attention. In these situations, examiners should ensure that the bank
has (1) sufficient earnings and capital to support an aggressive expansion strategy,
and (2) credit risk management controls that are sufficiently robust to fully
support the bank’s growth. In addition, CapitalSouth’s failure demonstrated that
pre-merger examinations need to be conducted consistent with the guidance in
SR Letter 98-28.

The Director of the Division of Banking Supervision and Regulation concurred
with our conclusions, lessons learned, and recommendation. The Director said
that he planned to implement our recommendation to clarify supervisory guidance
that sets forth the conditions under which examinations should be conducted
when depository institutions seek to become, or merge into, state member banks.


ONGOING INSPECTION AND EVALUATION WORK

As shown in the chart below, we are currently conducting 11 material loss
reviews of failed state member banks. The 11 banks had total assets of
approximately $9.5 billion and total losses of approximately $2.3 billion, or
approximately 25 percent of total assets.




Semiannual Report to Congress            24                               April 2010
State Member Banks that Failed during the Reporting Period
                                              Federal                         Projected                       FDIC IG
                                              Reserve         Asset size        Loss           Closure       Notification
  State Member Bank           Location        District      (in millions)   (in millions)       Date           Date1

Irwin Union Bank and        Columbus, IN       Chicago           $2,700.0      $552.4        09/18/2009       10/29/2009
    Trust

Warren Bank                  Warren, MI        Chicago           $ 530.9       $276.3        10/02/2009       10/29/2009


San Joaquin Bank             Bakersfield,   San Francisco        $ 771.8       $ 90.4        10/16/2009       11/12/2009
                                  CA

Bank of Elmwood               Racine, WI       Chicago           $ 339.1       $ 90.6        10/23/2009       11/12/2009


Orion Bank                    Naples, FL        Atlanta          $2,700.0      $593.8        11/13/2009       12/14/2009

SolutionsBank                  Overland      Kansas City         $ 510.1       $119.0        12/11/2009       01/04/2010
                                Park, KS

Barnes Banking              Kaysville, UT San Francisco          $ 745.5       $266.3        01/15/2010       03/03/2010
    Company

Marco Community             Marco Island,       Atlanta          $ 126.9       $ 36.9        02/19/2010       03/18/2010
   Bank                          FL

Bank of Illinois              Normal, IL       Chicago           $ 205.3       $ 53.7        03/05/2010       04/05/2010


Sun American Bank            Boca Raton,        Atlanta          $ 543.6       $103.0        03/05/2010       04/05/2010
                                  FL

Old Southern Bank            Orlando, FL        Atlanta          $ 351.0       $ 90.5        03/12/2010       04/05/2010


1. Date that the Board OIG received notification from the FDIC IG that the projected loss to the DIF would be material.
The Board OIG is required to complete its material loss review of such banks within six months of this notification date.


Below are brief summaries of these reviews.

1. Material Loss Review of Irwin Union Bank and Trust

On September 18, 2009, Irwin Union Bank and Trust, Columbus, Indiana, was
closed by the Indiana Department of Financial Institutions. At the time of
closure, Irwin Union Bank and Trust had total assets of $2.7 billion. On
October 29, 2009, the FDIC IG notified our office that the FDIC had estimated a
$552.4 million loss to the DIF, which exceeded the statutory threshold requiring
us to conduct a material loss review.

2. Material Loss Review of Warren Bank

On October 2, 2009, Warren Bank, Warren, Michigan, was closed by the
Michigan Office of Financial and Insurance Regulation. At the time of closure,
Warren Bank had total assets of $530.9 million. On October 29, 2009, the FDIC
IG notified our office that the FDIC had estimated a $276.3 million loss to the
DIF, which exceeded the statutory threshold requiring us to conduct a material
loss review.

Semiannual Report to Congress                               25                                               April 2010
3. Material Loss Review of San Joaquin Bank

On October 16, 2009, San Joaquin Bank, Bakersfield, California, was closed by
the California Department of Financial Institutions. At the time of closure, San
Joaquin Bank had total assets of $771.8 million. On November 12, 2009, the
FDIC IG notified our office that the FDIC had estimated a $90.4 million loss to
the DIF, which exceeded the statutory threshold requiring us to conduct a material
loss review.

4. Material Loss Review of Bank of Elmwood

On October 23, 2009, Bank of Elmwood, Racine, Wisconsin, was closed by the
Wisconsin Department of Financial Institutions. At the time of closure, Bank of
Elmwood had total assets of $339.1 million. On November 12, 2009, the FDIC
IG notified our office that the FDIC had estimated a $90.6 million loss to the DIF,
which exceeded the statutory threshold requiring us to conduct a material loss
review.

5. Material Loss Review of Orion Bank

On November 13, 2009, Orion Bank, Naples, Florida, was closed by the Florida
Office of Financial Regulation. At the time of closure, Orion Bank had total
assets of $2.7 billion. On December 14, 2009, the FDIC IG notified our office
that the FDIC had estimated a $593.8 million loss to the DIF, which exceeded the
statutory threshold requiring us to conduct a material loss review.

6. Material Loss Review of SolutionsBank

On December 11, 2009, SolutionsBank, Overland Park, Kansas, was closed by the
Office of the State Bank Commissioner of Kansas. At the time of closure,
SolutionsBank had total assets of $510.1 million. On January 4, 2010, the FDIC
IG notified our office that the FDIC had estimated a $119.0 million loss to the
DIF, which exceeded the statutory threshold requiring us to conduct a material
loss review.

7. Material Loss Review of Barnes Banking Company

On January 15, 2010, Barnes Banking Company, Kaysville, Utah, was closed by
the Utah Department of Financial Institutions. At the time of closure, Barnes
Banking Company had $745.5 million in total assets. On March 3, 2010, the
FDIC IG notified our office that the FDIC had estimated a $266.3 million loss to
the DIF, which exceeded the statutory threshold requiring us to conduct a material
loss review.




Semiannual Report to Congress           26                                April 2010
8. Material Loss Review of Marco Community Bank

On February 19, 2010, Marco Community Bank, Marco Island, Florida, was
closed by the Florida Office of Financial Regulation. At the time of closure,
Marco Community Bank had approximately $126.9 million in total assets. On
March 18, 2010, the FDIC IG notified our office that the FDIC had estimated a
$36.9 million loss to the DIF, which exceeded the statutory threshold requiring us
to conduct a material loss review.

9. Material Loss Review of Bank of Illinois

On March 5, 2010, Bank of Illinois, Normal, Illinois, was closed by the Illinois
Department of Financial and Professional Regulation. At the time of closure,
Bank of Illinois had approximately $205.3 million in total assets. On
April 5, 2010, the FDIC IG notified our office that the FDIC had estimated a
$53.7 million loss to the DIF, which exceeded the statutory threshold requiring us
to conduct a material loss review.

10. Material Loss Review of Sun American Bank

On March 5, 2010, Sun American Bank, Boca Raton, Florida, was closed by the
Florida Office of Financial Regulation. At the time of closure, Sun American
Bank had approximately $543.6 million in total assets. On April 5, 2010, the
FDIC IG notified our office that the FDIC had estimated a $103.0 million loss to
the DIF, which exceeded the statutory threshold requiring us to conduct a material
loss review.

11. Material Loss Review of Old Southern Bank

On March 12, 2010, Old Southern Bank, Orlando, Florida, was closed by the
Florida Office of Financial Regulation. At the time of closure, Old Southern
Bank had approximately $351.0 million in total assets. On April 5, 2010, the
FDIC IG notified our office that the FDIC had estimated a $90.5 million loss to
the DIF, which exceeded the statutory threshold requiring us to conduct a material
loss review.




Semiannual Report to Congress           27                               April 2010
Investigations
The Investigations program conducts criminal, civil, and administrative
investigations in support of the Board’s programs and operations. To effectively
carry out their mission, OIG special agents must possess a thorough knowledge of
current federal criminal statutes and the rules of criminal procedure, as well as other
rules, regulations, and court decisions governing the conduct of criminal, civil, and
administrative investigations. Additionally, OIG special agents have authority to
exercise specific law enforcement powers through a blanket deputation agreement
with the U.S. Marshals Service of the Department of Justice. OIG investigations
are conducted in compliance with the CIGIE’s Quality Standards for Investigations.


INVESTIGATIVE ACTIVITIES

Our criminal investigative activities involve leading or participating in a number
of multi-agency investigations. OIG special agents conduct investigations of
alleged criminal or otherwise prohibited activities that have an actual or potential
significant impact on the Board and its programs and operations. These
investigations involve alleged bank fraud, terrorist financing, money laundering,
and mortgage fraud. In addition, OIG special agents continue to address
allegations of criminal wrongdoing on the part of Board employees, as well as
violations of the Board’s standards of conduct. During this reporting period, we
opened 15 new cases and closed 1 case. Due to the sensitivity of these
investigations, we only report on concluded and ongoing activities that have
resulted in criminal, civil, or administrative action. The following are highlights
of our significant investigative activity over the last six months.


Board Employee Indicted for Selling Board Cell Phones to Friends

During this reporting period, a Board employee was charged with stealing and
selling government cell phones to friends, who then incurred tens of thousands of
dollars in airtime charges. In August 2007, after being informed that
approximately 22 cellular telephones were missing and believed stolen, the OIG
initiated an investigation into the alleged theft. The investigation determined that
at least 26 cell phones were missing and that the Board had incurred associated
charges in excess of $215,000 that were primarily due to international calls to
Jamaica, Brazil, Costa Rica, and the United Kingdom.

The alleged thefts occurred between November 2006 and September 2007, while
the Board employee, through her position, had access to the cell phones. The
employee is accused of selling at least 10 cell phones, some for as much as $250
each. Other phones were allegedly traded for services, such as discounts for
hairstyling services.

It is also alleged that in August 2008, during the OIG investigation, the employee
tried to “corruptly persuade” an individual who possessed some of the cell phones


Semiannual Report to Congress                28                              April 2010
to falsely testify before a grand jury that the individual received the cell phones
from a former Board employee.

On October 14, 2009, the employee was charged with theft of government
property, trafficking in unauthorized access devices, and tampering with witness
testimony. She was suspended from her job, without pay, and is currently
awaiting trial, which is scheduled for September 2010.


California Woman Entered Guilty Plea for False Personation of a Federal
Reserve Official in an Advance Fee Scheme

In late 2008, the OIG initiated an investigation into an individual’s alleged
“advance fee scheme” to defraud individuals and entities seeking loan financing
by misrepresenting an affiliation with the Federal Reserve System. The subject
was arrested on wire fraud charges that alleged she collected hundreds of
thousands of dollars in “advance fees” from victims who were promised
low-interest, multi-million dollar loans from the “Federal Reserve Bank.” This
investigation was conducted jointly with the Federal Bureau of Investigation,
U.S. Immigration and Customs Enforcement, the U.S. Postal Inspection Service,
and the Los Angeles Police Department.

The subject, who held herself out as an employee of the “Federal Reserve Bank,”
fraudulently promised more than a dozen victims 30-year business loans at a fixed
rate of 2.3 percent. The subject told a man she hired as her loan consultant and
approximately 15 identified victims that she could secure the loans without any
standard documentation because she worked directly with the head underwriter of
the Federal Reserve Bank. As part of the loan program, the subject required her
customers to make up-front “minimum capital requirement” payments, which
were generally about 5 percent of the loan amount.

The subject collected approximately $2 million from about 15 loan customers,
none of whom received a loan or saw the return of their minimum capital
requirement payment. In the case of one loan customer, the subject said the delay
in the funding of a $20 million loan was being caused by the failure of IndyMac
Bank. The bulk of a $600,000 minimum capital requirement payment was
transferred to an account that the subject controlled, and in the course of just one
month, tens of thousands of dollars were withdrawn as cash or used to pay various
retailers.

On January 11, 2010, the subject pleaded guilty to a criminal information
charging wire fraud, money laundering, false personation of an employee of the
Federal Reserve, and causing an act to be done. To date, the investigation has
resulted in cash, check, and bank account seizures totaling more than $800,000.
Four luxury vehicles were also seized.



Semiannual Report to Congress             29                                April 2010
The subject is scheduled to be sentenced in April 2010 for two counts of wire
fraud, one count of money laundering, and one count of personating an employee
of the Federal Reserve.


Board Law Enforcement Officer Resigned

During the current reporting period, the OIG completed an employee misconduct
investigation of a now former Board Law Enforcement Officer. The OIG
initiated the investigation in response to a referral from the Board’s Law
Enforcement Unit that a Board Law Enforcement Officer allegedly committed
domestic assault, potentially resulting in a violation of the Lautenberg
Amendment. The Lautenberg Amendment prohibits individuals, including police
officers, from possessing firearms if they have ever been convicted of a
misdemeanor crime of domestic violence.3 The criminal investigation was
conducted by Fairfax County, Virginia, law enforcement authorities and was
coordinated with the OIG. The Law Enforcement Officer pled nolo contendere
(no contest) to charges related to striking his girlfriend during a domestic dispute
in July 2009. The Officer was found guilty of misdemeanor domestic assault on
September 8, 2009. On September 15, 2009, the OIG issued a letter report to
Board management for appropriate action. The Officer subsequently resigned.


South Carolina Couple Indicted on Money Laundering Charges

During this reporting period, a South Carolina couple was indicted on charges of
money laundering and trafficking in counterfeit goods. The OIG initiated its
investigation based on a request for assistance from the U.S. Postal Inspection
Service in Charleston, South Carolina, concerning alleged money laundering and
structured deposits by two subjects. The investigation determined that, over a
one-year period, the subjects deposited approximately $1 million of Postal Money
Orders into bank accounts at various financial institutions, including several
Federal Reserve regulated institutions. Information developed during the
investigation revealed that the subjects were aware of the Postal Money Order
purchasing requirements and patterned their purchases to avoid detection.

On December 15, 2009, a federal grand jury indicted the subjects on charges of
money laundering and trafficking in counterfeit goods. The indictment charges
that the subjects knowingly conducted financial transactions affecting interstate
and foreign commerce with the structured purchase of 636 Postal Money Orders
valued at $579,865, which involved the proceeds from the unlawful sale of
counterfeit merchandise throughout the United States. During this investigation,
OIG special agents worked closely with Postal Inspectors analyzing financial
transactions in support of the alleged money laundering violations.


   3. The Lautenberg Amendment refers to section 658 of the Omnibus Consolidated Appropriations Act, 1997.


Semiannual Report to Congress                          30                                             April 2010
Summary Statistics on Investigations for the Period October 1, 2009,
through March 31, 2010
                            Investigative Actions                   Number

 Investigative Caseload
    Investigations Open at End of Previous Reporting Period          22
    Investigations Opened during Reporting Period                    15
    Investigations Closed during Reporting Period                     1
    Total Investigations Open at End of Reporting Period             36
 Investigative Results for Reporting Period
    Referred to Prosecutor                                             7
    Joint Investigations                                              23
    Referred for Audit                                                 0
    Referred for Administrative Action                                 1
    Oral and/or Written Reprimands                                     0
    Terminations of Employment                                         1
    Arrests                                                            2
    Suspensions                                                        0
    Debarments                                                         0
    Indictments                                                        2
    Criminal Information                                               1
    Convictions                                                        2
    Monetary Recoveries                                         $837,148
    Civil Actions (Fines and Restitution)                             $0
    Criminal Fines (Fines and Restitution)                           $50




Hotline Operations

In the wake of the economic crisis, the OIG received 351 complaints from hotline
calls, correspondence, email, and facsimile communications from Federal Reserve
System employees and members of the public. At the end of this section is a table
summarizing our hotline activity statistics for the reporting period. All
complaints received were evaluated to determine whether further inquiry was
warranted. Most hotline contacts were from consumers with complaints or
questions about the practices of financial institutions, financial institution
regulators, government officials, and monetary policy decisions. Other hotline
contacts were from individuals seeking advice about programs and operations of
the Board, Federal Reserve Banks, other OIGs, or other financial regulatory
agencies. These inquiries were referred to the appropriate Board offices, Reserve
Banks, and other federal or state agencies.

The OIG continued to receive a significant number of fictitious instrument fraud
complaints. Fictitious instrument fraud schemes are those in which promoters use
fictitious financial instruments, such as fraudulent checks, to obtain an improper
financial benefit. Examples of these schemes include the highly publicized
Nigerian email scams and instances where fraudulent instruments are claimed to
be issued, endorsed, or authorized by the Federal Reserve System.

In addition, we received a number of computer-related complaints involving the Federal
Reserve System. This included complaints regarding phishing schemes or fraudulent
emails involving solicitations directed at consumers by individuals identifying
themselves as representing the Federal Reserve, in order to bolster the legitimacy of the


Semiannual Report to Congress                           31                   April 2010
proposed financial transactions. These solicitations promise consumers access to large
sums of money after the consumers send sensitive personal or financial information. The
Federal Reserve is advising consumers that it does not endorse these solicitations or have
any involvement in them.


Summary Statistics on Hotline Activities for the Period October 1, 2009,
through March 31, 2010
                        Hotline Complaints                      Number

 Complaints Pending from Previous Reporting Period                 55
 Complaints Received during Reporting Period                      351
 Total Complaints for Reporting Period                            406
 Complaints Resolved during Reporting Period                      273
 Complaints Pending                                               133




Semiannual Report to Congress                        32                  April 2010
Legal Services
The Legal Services staff provides comprehensive legal advice, research,
counseling, analysis, and representation in support of OIG audits, investigations,
inspections, evaluations, and other professional, management, and administrative
functions. This work provides the legal basis for the conclusions, findings, and
recommendations contained within OIG reports. Moreover, Legal Services keeps
the IG and the OIG staff aware of recent legal developments that may affect the
activities of the OIG and the Board.

In accordance with section 4(a)(2) of the IG Act, the legal staff conducts an
independent review of newly enacted and proposed legislation and regulations to
determine their potential effect on the economy and efficiency of the Board’s
programs and operations. During this reporting period, Legal Services reviewed
27 legislative and 4 regulatory items.




Semiannual Report to Congress           33                               April 2010
Communications and Coordination
While the OIG’s primary mission is to enhance the economy, efficiency, and
effectiveness of Board programs and operations, we also coordinate externally
and work internally to achieve our goals and objectives. Externally, we regularly
coordinate with and provide information to Congress and congressional staff. We
are also active members of the broader IG professional community, and we
promote collaboration on shared concerns. Internally, we consistently strive to
enhance and maximize efficiency and transparency in our infrastructure and
day-to-day operations. Within the Board and the Federal Reserve System, we
continue to provide information about the OIG’s roles and responsibilities and
participate, in an advisory capacity, on various Board work groups. Highlights of
our activities follow.


Congressional Coordination and Testimony

The OIG has been communicating and coordinating with various congressional
committees on issues of mutual interest. During the reporting period, we
provided 14 responses to congressional members and staff.


Financial Regulatory Coordination

To foster cooperation on issues of mutual interest, including issues related to the
current financial crisis, the Board’s IG meets regularly with the IGs from other
federal financial regulatory agencies: the FDIC, the U.S. Department of the
Treasury, the National Credit Union Administration, the Securities and Exchange
Commission, the Farm Credit Administration, the Commodity Futures Trading
Commission, the Pension Benefit Guarantee Corporation, the Export-Import
Bank, and the Federal Housing Finance Agency. We also coordinate with the
Government Accountability Office. In addition, the Assistant IG for Audits and
Attestations and the Assistant IG for Inspections and Evaluations meet with their
financial regulatory agency OIG counterparts to discuss various topics, including
bank failure material loss review best practices, annual plans, and ongoing
projects.


Troubled Asset Relief Program Oversight and Law Enforcement Coordination

Our office participates with other financial regulatory OIGs on the Troubled Asset
Relief Program (TARP) IG Council to facilitate effective cooperation among
those entities whose oversight responsibilities relate to or affect the TARP.

We also coordinate with the Special IG for TARP and other law enforcement
agencies that are members of the Term Asset-Backed Securities Loan Facility
(TALF) Task Force. Representatives from each task force agency identify areas
of fraud vulnerability and provide training to agents and analysts with respect to


Semiannual Report to Congress            34                               April 2010
the complex issues surrounding the program. Our office also serves as a point of
contact within the task force for leads relating to the TALF and any resulting
cases that are generated.


Council of the Inspectors General on Integrity and Efficiency

The Board’s IG serves as a member of the CIGIE. Collectively, the members of
the CIGIE help improve government programs and operations. The CIGIE
provides a forum to discuss government-wide issues and shared concerns. The
Board’s IG also serves as a member of the CIGIE Legislation Committee, which
is the central point of information regarding legislative initiatives and
congressional activities that may affect the community.


Committee, Workgroup, and Program Participation

The IG continues to serve on various Board committees and work groups, such as
the Senior Management Council. In addition, OIG staff members participate in a
variety of Board working groups, including the Space Planning Executive Group,
the Leading and Managing People Working Group, the Information Technology
Advisory Group, the Core Response Group, the Management Advisory Group, the
Information Security Committee, and the Continuity of Operations Working
Group. Externally, the OIG legal staff are members of the Council of Counsels to
the Inspector General. In addition, the Assistant IG for Audits and Attestations
serves as co-chair of the IT Committee of the Federal Audit Executive Council and
works with audit staff throughout the IG community on common IT audit issues.


OIG Information Technology

The OIG continually strives to enhance its IT infrastructure to provide effective,
reliable, secure, and innovative information systems for the OIG to carry out its
mission. During this reporting period, consistent with the OIG Continuity of
Operations Plan, we coordinated with the Board’s Division of IT to successfully
conduct a thorough test of the contingency IT infrastructure to ensure that it is
operational during emergency events. The OIG also continues to maintain its
IT-related policies and procedures to ensure OIG compliance with FISMA.




Semiannual Report to Congress            35                               April 2010
Appendixes
Appendix 1
Audit, Inspection, and Evaluation Reports Issued with Questioned Costs
during the Reporting Period1
                                                                                                   Dollar Value
                                                                                         Questioned       Unsupported
                               Reports                                   Number            Costs
 For which no management decision had been made by the                       0                $0                  $0
    commencement of the reporting period

 That were issued during the reporting period                                0                $0                  $0

 For which a management decision was made during the reporting               0                $0                  $0
    period

     (i)    dollar value of disallowed costs                                 0                $0                  $0

     (ii)   dollar value of costs not disallowed                             0                $0                  $0

 For which no management decision had been made by the end of                0                $0                  $0
    the reporting period

 For which no management decision was made within six months                 0                $0                  $0
    of issuance

  1. Because the Board is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation is often not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          39                             April 2010
Appendix 2
Audit, Inspection, and Evaluation Reports Issued with Recommendations that
Funds Be Put to Better Use during the Reporting Period1
                                       Reports                                              Number         Dollar Value

 For which no management decision had been made by the commencement of the                      0                 $0
    reporting period

 That were issued during the reporting period                                                   0                 $0

 For which a management decision was made during the reporting period                           0                $0

  (i)    dollar value of recommendations that were agreed to by management                      0                 $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                $0

 For which no management decision had been made by the end of the reporting period              0                 $0

 For which no management decision was made within six months of issuance                        0                 $0

  1. Because the Board is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation is often not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          40                             April 2010
Appendix 3
OIG Reports with Recommendations that Were Open during the Reporting
Period1
                                                                            Recommendations              Status of Recommendations

                                                                                                          Follow-up
                                                         Issue                   Mgmt.       Mgmt.        Completion
                       Report                            Date         No.        Agrees     Disagrees       Date          Closed Open

 Audit of Retirement Plan Administration                  07/03         4           3            1            03/10          4      0

 Evaluation of Service Credit Computations                08/05         3           3            0            03/07          1      2

 Audit of the Board’s Information Security Program        10/05         2           2            0            11/09          2      0

 Security Control Review of the Central Document          10/06        16          16            0            09/09         14      2
   and Text Repository System (Non-public Report)

 Audit of the Board’s Payroll Process                     12/06         7           7            0            03/10          3      4

 Security Control Review of the Internet Electronic       02/07        13          13            0            09/09         12      1
   Submission System (Non-public Report)

 Audit of the Board’s Compliance with Overtime            03/07         2           2            0            03/08          1      1
   Requirements of the Fair Labor Standards Act

 Security Control Review of the Federal Reserve           01/08         7           7            0            09/09          6      1
   Integrated Records Management Architecture
   (Non-public Report)

 Review of Selected Common Information Security           03/08         6           6            0              –            –      6
   Controls (Non-public Report)

 Security Control Review of the FISMA Assets              09/08        11          11            0              –            –     11
   Maintained by FRB Boston (Non-public Report)

 Evaluation of Data Flows for Board Employee Data         09/08         2           2            0              –            –      2
   Received by OEB and its Contractors (Non-public
   Report)

 Audit of the Board’s Information Security Program        09/08         2           2            0            11/09          1      1

 Control Review of the Board’s Currency                   09/08         6           6            0            03/10          5      1
   Expenditures and Assessments

 Audit of Blackberry and Cell Phone Internal Controls     03/09         3           3            0              –            –      3

 Inspection of the Board’s Law Enforcement Unit           03/09         2           2            0              –            –      2
   (Non-public Report)

 Security Control Review of the Audit Logging             03/09         4           4            0              –            –      4
   Provided by the Information Technology General
   Support System (Non-public Report)

 Security Control Review of the Electronic Security       06/09         8           8            0            03/10          8      0
   System (Non-public Report)

 Material Loss Review of First Georgia Community          06/09         1           1            0              –            –      1
  Bank

 Material Loss Review of County Bank                      09/09         1           1            0              –            –      1

  1. A recommendation is closed if (1) the corrective action has been taken; (2) the recommendation is no longer applicable; or (3) the
appropriate oversight committee or administrator has determined, after reviewing the position of the OIG and division management, that
no further action by the Board is warranted. A recommendation is open if (1) division management agrees with the recommendation and
is in the process of taking corrective action, or (2) division management disagrees with the recommendation and we have referred or are
referring it to the appropriate oversight committee or administrator for a final decision.




Semiannual Report to Congress                                41                                            April 2010
Appendix 3
OIG Reports with Recommendations that Were Open during the Reporting
Period—Continued
                                                                     Recommendations          Status of Recommendations

                                                                                              Follow-up
                                                       Issue             Mgmt.     Mgmt.      Completion
                        Title                          Date    No.       Agrees   Disagrees     Date        Closed Open

 Audit of the Board’s Processing of Applications for   09/09    2           2          0           –         –      2
   the Capital Purchase Program under the Troubled
   Asset Relief Program

 Audit of the Board’s Information Security Program     11/09    4           4          0           –         –      4

 Material Loss Review of Community Bank of West        01/10    1           1          0           –         –      1
  Georgia

 Material Loss Review of CapitalSouth Bank             03/10    1           1          0           –         –      1




Semiannual Report to Congress                             42                                   April 2010
Appendix 4
Audit, Inspection, and Evaluation Reports Issued during the Reporting Period
                                          Title                                                   Type of Report

Board of Governors of the Federal Reserve System Financial Statements as of and for the Years          Audit
Ended December 31, 2009 and 2008, and Independent Auditors’ Report

Federal Financial Institutions Examination Council Financial Statements as of and for the Years       Audit
Ended December 31, 2009 and 2008, and Independent Auditors’ Report

Audit of the Board’s Information Security Program                                                     Audit

Material Loss Review of Michigan Heritage Bank                                                      Evaluation

Material Loss Review of Community Bank of West Georgia                                              Evaluation

Material Loss Review of Neighborhood Community Bank                                                 Evaluation

Material Loss Review of BankFirst                                                                   Evaluation

Material Loss Review of Community First Bank                                                        Evaluation

Material Loss Review of Community Bank of Nevada                                                    Evaluation

Material Loss Review of CapitalSouth Bank                                                           Evaluation




Total Number of Audit Reports: 3
Total Number of Inspection and Evaluation Reports: 7


Full copies of these reports are available on our website at
http://www.federalreserve.gov/oig/default.htm




Semiannual Report to Congress                               43                                         April 2010
Appendix 5
Cross-References to the Inspector General Act
Indexed below are the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, during the reporting period.
      Section                                             Source                                  Page(s)

4(a)(2)           Review of legislation and regulations                                             33

5(a)(1)           Significant problems, abuses, and deficiencies                                   None

5(a)(2)           Recommendations with respect to significant problems                             None

5(a)(3)           Significant recommendations described in previous semiannual reports on which    None
                  corrective action has not been completed

5(a)(4)           Matters referred to prosecutorial authorities                                     31

5(a)(5)/6(b)(2)   Summary of instances where information was refused                               None

5(a)(6)           List of audit, inspection, and evaluation reports                                 43

5(a)(7)           Summary of particularly significant reports                                      None

5(a)(8)           Statistical table of questioned costs                                             39

5(a)(9)           Statistical table of recommendations that funds be put to better use              40

5(a)(10)          Summary of audit, inspection, and evaluation reports issued before the           None
                  commencement of the reporting period for which no management decision has
                  been made

5(a)(11)          Significant revised management decisions made during the reporting period        None

5(a)(12)          Significant management decisions with which the Inspector General is in          None
                  disagreement




Semiannual Report to Congress                               44                                     April 2010
Table of Acronyms and Abbreviations
 ADC                 Acquisition, Development, and Construction

 Board               Board of Governors of the Federal Reserve System

 CapitalSouth        CapitalSouth Bank

 CBON                Community Bank of Nevada

 CIGIE               Council of the Inspectors General on Integrity and Efficiency

 CIO                 Chief Information Officer

 CLD                 Construction and Land Development

 Community First     Community First Bank

 CRE                 Commercial Real Estate

 DIF                 Deposit Insurance Fund

 DoA                 Delegation of Authority

 ESS                 Electronic Security System

 FDI Act             Federal Deposit Insurance Act

 FDIC                Federal Deposit Insurance Corporation

 FFIEC               Federal Financial Institutions Examination Council

 FISMA               Federal Information Security Management Act of 2002

 FRB Atlanta         Federal Reserve Bank of Atlanta

 FRB Chicago         Federal Reserve Bank of Chicago

 FRB Minneapolis     Federal Reserve Bank of Minneapolis

 FRB San Francisco   Federal Reserve Bank of San Francisco

 IG                  Inspector General

 IG Act              Inspector General Act of 1978, as amended

 ISO                 Information Security Officer

 IT                  Information Technology

 Michigan Heritage   Michigan Heritage Bank

 MGT                 Management Division




Semiannual Report to Congress                    45                                  April 2010
Table of Acronyms and Abbreviations
 Neighborhood        Neighborhood Community Bank

 OIG                 Office of Inspector General

 POA&M               Plan of Action and Milestones

 RBOPS               Division of Reserve Bank Operations and Payment Systems

 SR                  Supervision and Regulation

 TALF                Term Asset-Backed Securities Loan Facility

 TARP                Troubled Asset Relief Program

 West Georgia        Community Bank of West Georgia




Semiannual Report to Congress                 46                               April 2010
           Inspector General Hotline
                1-202-452-6400
                1-800-827-3340

   Report: Fraud, Waste, or Mismanagement
        Caller may remain anonymous

             You may also write to:
           Office of Inspector General
                    HOTLINE
Board of Governors of the Federal Reserve System
    20th Street and Constitution Avenue, NW
                      MS-300
             Washington, DC 20551

         or visit our hotline web page at:
http://www.federalreserve.gov/oig/oig_hotline.htm
